                                              EMPLOYMENT STANDARDS
                                              ADMINISTRATION
Office of Inspector General—Office of Audit




                                              OFFICE OF WORKERS’ COMPENSATION PROGRAMS
                                              LICENSING AND CONFIDENTIALITY PROCEDURES
                                              FOR CONTRACT NURSES




                                                                 Date Issued: September 29, 2006
                                                                 Report Number: 02-06-207-04-431
Department of Labor                                  SEPTEMBER 2006
Office of Inspector General
Office of Audit
                                                     OWCP: Licensing and Confidentiality
                                                     Procedures for Contract Nurses

BRIEFLY…                                             WHAT OIG FOUND
Highlights of Report Number: 02-06-207-04-431, to    OWCP had procedures in place requiring
the Assistant Secretary for Employment Standards     verification of nurse licenses during contracting
Administration                                       and hiring. However, these procedures did not
                                                     require periodic review to ensure that licenses
WHY READ THE REPORT                                  were renewed and in good standing. Rather,
                                                     OWCP policy was to leave the periodic review
In 2005, the Office of Workers Compensation          process to the discretion of the individual DO.
Programs (OWCP) reported contract nurses             Consistent license verification can reduce
handled 17,186 cases and were able to have           OWCP’s risk of not timely identifying license
8,088 workers return to work. Contract nurses        restrictions or the failure to renew licenses.
are assigned to newly injured workers to obtain
information, evaluate the level of disability, and   OWCP’s policy requires the claimant to be
notify District Offices (DOs) of pending surgery     responsible for notifying medical providers when
or prolonged recovery. Contract nurses also          a contract nurse should or should not receive
coordinate medical care and return-to-work           medical information. However, OWCP
issues, and can transfer cases for vocational        communications with claimants do not state the
rehabilitation or more aggressive medical            claimant’s level of responsibility for notifying
intervention.                                        medical providers regarding nurse access to
                                                     medical information and claimants were not
WHY OIG DID THE AUDIT                                notified when contract nurses were no longer
                                                     actively assigned the claim. As a result, contract
This audit was conducted in response to a            nurses may unnecessarily receive access to
complaint from a former OWCP contract nurse          confidential medical records.
whose allegations included noncompliance with
nurse licensure policies and unnecessary             WHAT OIG RECOMMENDED
access to confidential medical records. Our
audit was limited to examining the OWCP              The OIG recommended the Assistant Secretary
procedures used to verify contract nurse             for Employment Standards:
licensure and also the procedures that restrict
contract nurse access to confidential medical        1. Establish and implement policies and
records. Our objectives were to determine if: (1)       procedures for verification of licenses to
OWCP license verification procedures were               determine renewal and good standing at
adequate for contract nurses; and (2) OWCP              regular intervals for its contract nurses.
procedures restricting contract nurse access to
confidential medical records were adequate.          2. Establish practices to clearly and
Our audit period was January 1, 2003, through           consistently communicate with claimants
December 31, 2005.                                      delineating their responsibilities so that
                                                        contract nurses do not have unnecessary
READ THE FULL REPORT                                    access to confidential medical records.

To view the report, including the scope,             In her response to the draft report, the Assistant
methodology and agency response, go to:              Secretary for Employment Standards concurred
                                                     with the findings and recommendations. She
http://www.oig.dol.gov/public/reports/oa/200         stated that procedures will be developed by
6/02-06-207-04-431.pdf                               October 31, 2006.
                                                       Audit of Office of Workers’ Compensation Programs
                                              Licensing and Confidentiality Procedures for Contract Nurses



Table of Contents
                                                                                                                     PAGE

EXECUTIVE SUMMARY ................................................................................................ 3


ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 5


RESULTS AND FINDINGS............................................................................................. 5

    1. License Verification Procedures Need to be Strengthened............................ 5

    2. Communication Procedures on Confidential Medical Records Need
       to be Strengthened............................................................................................. 6


APPENDICES ................................................................................................................. 9

    A. Background....................................................................................................... 11

    B. Objectives, Scope, Methodology and Criteria................................................ 13

    C. Acronyms and Abbreviations.......................................................................... 15

    D. Agency Response ............................................................................................ 17




U.S. Department of Labor – Office of Inspector General                                                                      1
Report Number: 02-06-207-04-431
Audit of Office of Workers’ Compensation Programs
Licensing and Confidentiality Procedures for Contract Nurses




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                         U.S. Department of Labor – Office of Inspector General
                                                              Report Number: 02-06-207-04-431
                                             Audit of Office of Workers’ Compensation Programs
                                    Licensing and Confidentiality Procedures for Contract Nurses


Executive Summary
The Office of Inspector General (OIG) performed an audit of the Office of Workers’
Compensation Programs’ (OWCP) procedures for ensuring contract nurses with the
Nurse Intervention Program were properly licensed and had access to confidential
medical records restricted to only assigned cases. This audit was conducted in
response to a complaint from a former OWCP contract nurse whose allegations
included noncompliance with nurse licensure policies and unnecessary access to
confidential medical records.

Our audit was limited to examining the OWCP procedures for the Nurse Intervention
Program used to verify contract nurse licensure and also the procedures that restrict
contract nurse access to confidential medical records. Our objectives were to
determine if:

     1. OWCP license verification procedures were adequate for contract nurses?

     2. OWCP procedures restricting contract nurse access to confidential medical
        records were adequate?


Results and Findings

OWCP generally had procedures for documenting contract nurse licenses and
restricting access to medical records in claimant files. However, these procedures need
to be strengthened to improve controls for the Nurse Intervention Program.

1. License Verification Procedures Need to be Strengthened

OWCP had procedures in place requiring verification of nurse licenses during
contracting and hiring. However, these procedures did not require periodic review to
ensure that licenses were renewed and in good standing. Rather, OWCP policy was to
leave the periodic review process to the discretion of the individual District Offices (DO).
Consistent license verification can reduce OWCP’s risk of not timely identifying license
restrictions or the failure to renew licenses.

2. Communication Procedures on Confidential Medical Records Need to be
   Strengthened

OWCP generally had procedures for restricting contract nurse access to medical
records. OWCP’s policy requires the claimant to be responsible for notifying medical
providers when a contract nurse should or should not receive medical information.
However, OWCP communications with claimants do not state the claimant’s level of
responsibility for notifying medical providers regarding nurse access to medical



U.S. Department of Labor – Office of Inspector General                                        3
Report Number: 02-06-207-04-431
Audit of Office of Workers’ Compensation Programs
Licensing and Confidentiality Procedures for Contract Nurses

information and claimants were not notified when contract nurses were no longer
actively assigned the claim.

As a result, contract nurses may unnecessarily receive access to confidential medical
records. While we found no evidence that medical information was misused, clear
communications with claimants should reduce incidences where contract nurses receive
unnecessary access to medical records.

Recommendations

We recommend the Assistant Secretary for Employment Standards:

    1. Establish and implement policies and procedures for verification of licenses to
       determine renewal and good standing at regular intervals for its contract nurses.

    2. Establish practices to clearly and consistently communicate with claimants
       delineating their responsibilities so that contract nurses do not have unnecessary
       access to confidential medical records.

Agency Response

In her response to the draft report, the Assistant Secretary for Employment Standards
concurred with the findings and recommendations. She stated that procedures will be
developed by October 31, 2006.

OIG Conclusion

Based on ESA’s planned actions, both recommendations are resolved and will be
closed when we verify that the corrective actions were implemented.




4                                         U.S. Department of Labor – Office of Inspector General
                                                              Report Number: 02-06-207-04-431
                                             Audit of Office of Workers’ Compensation Programs
                                    Licensing and Confidentiality Procedures for Contract Nurses

U.S. Department of Labor                        Office of Inspector General
                                                Washington, DC 20210




                          Assistant Inspector General’s Report



Ms. Victoria A. Lipnic
Assistant Secretary for Employment Standards
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210

The OIG performed an audit in response to a complaint from a former OWCP contract
nurse whose allegations included noncompliance with nurse licensure policies and
unnecessary access to confidential medical records.

Our audit was limited to examining the OWCP procedures for the Nurse Intervention
Program used to verify contract nurse licensure and also the procedures that restrict
contract nurse access to confidential medical records. Our objectives were to
determine if:

     1. OWCP license verification procedures were adequate for contract nurses?

     2. OWCP procedures restricting contract nurse access to confidential medical
        records were adequate?

We conducted our audit in accordance with Generally Accepted Government Auditing
Standards for performance audits. Our objectives, scope, methodology and criteria are
detailed in Appendix B.


Objective 1 – Were OWCP License Verification Procedures Adequate for Contract
Nurses?

Results and Findings – License Verification Procedures Need to be Strengthened

According to OWCP’s Procedure Manual, Chapter 3, section 0202-5, OWCP had
procedures in place requiring verification of nurse licenses during its contracting and
hiring process. However, these procedures did not require the periodic review to
ensure that licenses were renewed and in good standing. Rather, OWCP policy was to
leave the periodic review process to the discretion of the individual DO.




U.S. Department of Labor – Office of Inspector General                                        5
Report Number: 02-06-207-04-431
Audit of Office of Workers’ Compensation Programs
Licensing and Confidentiality Procedures for Contract Nurses

Each state had different licensing and renewal requirements. Most states’ licenses
were valid for 2 years, but license renewals ranged between 1 and 4 years. The New
York District Office (NYDO) contract nurses were licensed in New Jersey, New York
and Puerto Rico: New Jersey licenses were valid for 2 years; and New York and Puerto
Rico licenses were valid for 3 years.

NYDO established a policy requiring the verification of licenses quarterly, but did not
regularly do so for most of its active nurses. As of March 2006, NYDO had 39 contract
nurses actively managing cases; and the nurses held 54 current licenses in New York,
New Jersey and Puerto Rico. However, a review of records disclosed 31 out of 54
nurse licenses were verified by the NYDO, but not quarterly. Subsequent verification
was performed for the other 23 licenses and disclosed the licenses were considered in
good standing.

Consistent license verification can reduce OWCP’s risk of not timely identifying license
restrictions or the failure to renew licenses.

Recommendation

    1. We recommend that the Assistant Secretary for Employment Standards establish
       and implement policies and procedures for verification of licenses to determine
       renewal and good standing at regular intervals for its contract nurses.

Agency Response

In her response to the draft report, the Assistant Secretary for Employment Standards
concurred with the finding and recommendation. She stated that procedures will be
developed by October 31, 2006.

OIG Conclusion

Based on ESA’s planned action, the recommendation is resolved and will be closed
when we verify that the corrective action was implemented.


Objective 2 – Were OWCP Procedures Restricting Contract Nurse Access to
Confidential Medical Records Adequate?

Results and Findings –Communication Procedures on Confidential Medical
Records Need to be Strengthened

OWCP generally had procedures for restricting contract nurse access to medical
records. OWCP’s policy requires the claimant to be responsible for notifying medical
providers when a contract nurse should or should not receive medical information.




6                                         U.S. Department of Labor – Office of Inspector General
                                                              Report Number: 02-06-207-04-431
                                             Audit of Office of Workers’ Compensation Programs
                                    Licensing and Confidentiality Procedures for Contract Nurses

OWCP sends an introduction letter to advise the claimant that a contract nurse has
been assigned to help coordinate the flow of information between the claimant, OWCP,
the employing agency, and medical providers. However, OWCP communications with
claimants do not state the claimant’s level of responsibility for notifying medical
providers regarding nurse access to medical information and claimants were not notified
when contract nurses were no longer actively assigned the claim.

As a result, contract nurses may unnecessarily receive access to confidential medical
records. While we found no evidence that medical information was misused, clear
communications with claimants should reduce incidences where contract nurses receive
unnecessary access to medical records.

Recommendation

   2. We recommend the Assistant Secretary for Employment Standards establish
      practices to clearly and consistently communicate with claimants delineating their
      responsibilities so that contract nurses do not have unnecessary access to
      confidential medical records.

Agency Response

In her response to the draft report, the Assistant Secretary for Employment Standards
concurred with the finding and recommendation. She stated that procedures will be
developed by October 31, 2006.

OIG Conclusion

Based on ESA’s planned action, the recommendation is resolved and will be closed
when we verify that the corrective action was implemented.



Elliot P. Lewis
April 11, 2006




U.S. Department of Labor – Office of Inspector General                                        7
Report Number: 02-06-207-04-431
Audit of Office of Workers’ Compensation Programs
Licensing and Confidentiality Procedures for Contract Nurses




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




8                                         U.S. Department of Labor – Office of Inspector General
                                                              Report Number: 02-06-207-04-431
                                             Audit of Office of Workers’ Compensation Programs
                                    Licensing and Confidentiality Procedures for Contract Nurses




Appendices




U.S. Department of Labor – Office of Inspector General                                        9
Report Number: 02-06-207-04-431
Audit of Office of Workers’ Compensation Programs
Licensing and Confidentiality Procedures for Contract Nurses




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




10                                        U.S. Department of Labor – Office of Inspector General
                                                              Report Number: 02-06-207-04-431
                                             Audit of Office of Workers’ Compensation Programs
                                    Licensing and Confidentiality Procedures for Contract Nurses

                                                                                 APPENDIX A
BACKGROUND

The Nurse Intervention Program is a comprehensive approach to minimize the length
and extent of disability in worker compensation cases. In the early 1990's, OWCP
formalized the use of contract nurses as facilitators to create a more comprehensive
approach to case management. Research had indicated that the use of nurses might
serve to shorten the periods of disability and increase the likelihood of returning to work.
Nurses were used to ensure injured employees receive prompt and appropriate
treatment for their injuries, and therefore, return to work as soon as possible.

In 2005, OWCP issued its Annual Report to Congress on its fiscal year 2002 operations.
OWCP reported nurses handled 17,186 cases and were able to have 8,088 workers
return to work. Contract nurses are assigned to newly injured workers to obtain
information, evaluate the level of disability, and notify DOs of pending surgery or
prolonged recovery. Contract nurses also coordinate medical care and return-to-work
issues, and can transfer cases for vocational rehabilitation or more aggressive medical
intervention.




U.S. Department of Labor – Office of Inspector General                                       11
Report Number: 02-06-207-04-431
Audit of Office of Workers’ Compensation Programs
Licensing and Confidentiality Procedures for Contract Nurses




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




12                                        U.S. Department of Labor – Office of Inspector General
                                                              Report Number: 02-06-207-04-431
                                             Audit of Office of Workers’ Compensation Programs
                                    Licensing and Confidentiality Procedures for Contract Nurses

                                                                                 APPENDIX B
OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA

OBJECTIVES

Our audit was limited to examining the OWCP procedures for the Nurse Intervention
Program for the period January 1, 2003, through December 31, 2005, used to verify
contract nurse licensure and also the procedures that restrict contract nurse access to
confidential claimant medical records. Our objectives were to determine if:

   1. OWCP license verification procedures were adequate for contract nurses?

   2. OWCP procedures restricting contract nurse access to confidential medical
      records were adequate?

SCOPE

Our performance audit was conducted in accordance with Generally Accepted
Government Auditing Standards for performance audits and included such tests as we
considered necessary to satisfy the objectives. A performance audit includes an
understanding of internal controls considered significant to the audit objectives and
testing compliance with significant laws, regulations and other compliance
requirements. In order to plan the audit, we considered whether internal controls
significant to the audit were properly designed and placed in operation.

Our audit period was January 1, 2003, through December 31, 2005. Our audit was
limited to OWCP procedures to verify contract nurse licensure and restrict contract
nurses access to confidential medical records. We obtained an understanding of the
applicable controls and their effectiveness.

As of December 31, 2005, OWCP had approximately 640 contract nurses. NYDO had
39 active contract nurses. Fieldwork was conducted at OWCP National Headquarters
in Washington, DC, and NYDO in New York, NY, from January 25, 2006, through
April 11, 2006.

METHODOLOGY

We obtained an understanding of OWCP’s policies and procedures over nurse licensure
and confidential claimant medical information through inquiries with appropriate
personnel, review of policies and procedure manuals, and inspection of relevant
documentation. We reviewed policies and procedures from the OWCP Procedure
Manual and Department of Labor Manual Series, and standard practices established in
the NYDO. We interviewed the Northeast Regional Director, NYDO Director and staff
nurse, and OWCP headquarters chief nurse. We reviewed documents and procedures




U.S. Department of Labor – Office of Inspector General                                       13
Report Number: 02-06-207-04-431
Audit of Office of Workers’ Compensation Programs
Licensing and Confidentiality Procedures for Contract Nurses

for the nurse certification process, contracts with nurses, and introduction letters to
claimants.

For the NYDO, we reviewed license documentation for the 39 active contract nurses
and analyzed the frequency of license verifications performed by the DO staff nurse.
For nurses without recent license verifications, we established the current status of their
licenses from Internet websites maintained by the States of New York and New Jersey,
and through written correspondence with Puerto Rico.

CRITERIA

We tested compliance with Federal requirements using the following criteria:

     •   OWCP Procedure Manual, Chapters 1 and 3
     •   Department of Labor Manual Series, Part 5, Chapters 200 and 300




14                                        U.S. Department of Labor – Office of Inspector General
                                                              Report Number: 02-06-207-04-431
                                             Audit of Office of Workers’ Compensation Programs
                                    Licensing and Confidentiality Procedures for Contract Nurses

                                                                                 APPENDIX C
ACRONYMS AND ABBREVIATIONS


   DO                 District Office

   NYDO               New York District Office

   OIG                Office of Inspector General

   OWCP               Office of Workers’ Compensation Programs




U.S. Department of Labor – Office of Inspector General                                       15
Report Number: 02-06-207-04-431
Audit of Office of Workers’ Compensation Programs
Licensing and Confidentiality Procedures for Contract Nurses




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




16                                        U.S. Department of Labor – Office of Inspector General
                                                              Report Number: 02-06-207-04-431
                                             Audit of Office of Workers’ Compensation Programs
                                    Licensing and Confidentiality Procedures for Contract Nurses

                                                                                 APPENDIX D
AGENCY RESPONSE TO DRAFT REPORT




U.S. Department of Labor – Office of Inspector General                                       17
Report Number: 02-06-207-04-431
